2311 Douglas Street CA L eg KLE

E-Mail Address:
Omaha, Nebraska 68102-1214

Est.1923 contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-895

SCOTT A. SELDIN, Individually and as a
‘Trustee of the Seldin 2002 Irrevocable Trust,
dated October 9, 1993, et al.,
Petitioners,

v.

ESTATE OF STANLEY C. SILVERMAN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 8804 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 8th day of April, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

fn Merion | NOTARY-State of Nebraska z Chih,
‘ fn Merion | @oss ¢ hdr .
My Comm. Exp. September 5, 2023
Notary Public Affiant 40869
